REVIEW OF THE MINE SAFETY AND HEALTH
ADMINISTRATION’S TECHNICAL EXPERTISE
     IN APPROVING AND CERTIFYING
           MINING EQUIPMENT




           U.S. Department of Labor
           Office of Inspector General
Office of Analysis, Complaints and Evaluations




                                      Report No. 2E-06-001-0005

                                      Date: September, 30 1999
                                               Table of Contents


                                                                                                                        Page

      Executive Summary...............................................................................................i

I     Purpose.................................................................................................................1

II    Scope....................................................................................................................1

III   Background...........................................................................................................2

IV    Methodology..........................................................................................................3

V     Findings.................................................................................................................
      3

VI    Recommendations................................................................................................5



Appendix

A     MSHA Response Letter........................................................................................7

B     OIG Response....................................................................................................11
                               EXECUTIVE SUMMARY

The Office of Inspector General (OIG) conducted a review to determine whether the
sources of scientific and technical expertise the Mine Safety and Health Administration
(MSHA) uses for certification and approval of mining equipment are adequate. We
believe MSHA’s ability to determine that it has the necessary expertise in this area is
critical given the increasingly fast pace of technological change and the ever present
goal of ensuring American workers are afforded safe work places.

Our review focused on the process MSHA employs to fulfill its approval and certification
mission. We reviewed: (1) whether MSHA knows what expertise they need, (2)
whether the agency knows the resources it has in-house and (3) what other sources of
expertise the agency uses for approval and certification of mining equipment.

We had three findings. First, no systematic and recurrent review is conducted of the
expertise MSHA needs to fulfill its scientific and technical mission. Second, no
comprehensive and systematic analysis is conducted to determine whether the
expertise MSHA has in-house matches the technical and scientific requirements to
certify and approve mining equipment. Third, no systematic search is conducted for
other sources of expertise to augment what resources MSHA has in-house for approval
and certification of mining equipment.

MSHA review their need and level of expertise informally through the Approval and
Certification Center in Triadelphia, West Virginia. Agency personnel also take
advantage of a variety of resources such as the Internet, membership in professional
organizations, and training to scan the technological and scientific environment.
However, these actions are not carried out systematically.

In order to enhance MSHA’s program of approval and certification of mining equipment
we make the following recommendations.

      1. We recommend that MSHA conduct a systematic needs assessment on a
         recurrent basis to specify areas of scientific and technical expertise required
         to fulfill the agency’s approval and certification mission.

      2. We recommend that MSHA systematically track and monitor in-house
         expertise.

      3. We recommend that MSHA develop a systematic method for identifying
         external scientific and technical sources of expertise for certifying and
         approving mining equipment.

                                               i
I. PURPOSE
The Office of the Inspector General (OIG) reviewed the Mine Safety and Health
Administration’s (MSHA) approval and certification of mining equipment. Our purpose
was to determine whether the agency has the necessary technical and scientific
expertise for approval and certification of mining equipment. This expertise is critical
given the increasingly fast pace of technological innovation.

During an earlier review of a self-contained self-rescuer (SCSR) procurement contract
and the Portal-Pack Recall1, we became aware of the informality with which the agency
determines whether it has the necessary scientific and technical expertise for approval
and certification of mining equipment. To determine whether MSHA’s sources of
scientific and technical expertise are adequate to fulfill its mission, we posed the
following evaluative questions:

      1. Does MSHA know what expertise they need to approve and certify mining
         equipment?

      2. Does MSHA know what scientific and technical resources they have in-house
         to approve and certify mining equipment?

      3. What other sources of expertise does MSHA use to approve and certify
         mining equipment?


II. SCOPE

Our review focused on MSHA’s approval and certification mission. We specifically
reviewed the agency’s ability to determine whether it has the necessary expertise to
approve and certify mining equipment. MSHA performs many other technical functions
in support of mining safety and health programs that were beyond the scope of our
evaluation. For example, other MSHA activities include investigations of safety and
health concerns relating to product approvals and litigation assistance; and research
assistance to other government agencies on research programs that directly relate to
MSHA. We did not review these functions.



III. BACKGROUND


      1
       U.S. Department of Labor, Office of Inspector General, Review of a Self-
Contained Self-Rescuer Procurement Contract for the Mine Safety and Health
Administration, 1999. (2E-06-001-0003)

                                            1
Under the Federal Coal Mine Safety and Health Act of 1969, as amended by the
Federal Mine Safety and Health Act of 19772, MSHA has primary authority for all
inspections and compliance activities for more than 15,000 mines around the nation. A
critical part of the certification process is testing/inspecting mining products to ensure
conformity with high technical and safety standards. We became concerned about
MSHA’s ability to execute its scientific and technical mission with mining equipment
during a previous study on the “Review of a Self-Contained Self-Rescuer Procurement
Contract and the Portal-Pack Recall for the Mine Safety and Health Administration.”

This report identified a number of deficiencies in management and technical areas.
Given the fast-paced growth of technological innovation and the difficulties inherent
with staying current with it, we are concerned about MSHA’s ability to determine that it
has the necessary expertise to approve and certify mining and safety equipment.

MSHA provides engineering and scientific expertise to assist the states and the mining
industry in the resolution of safety and health issues through two technical centers one
located in Bruceton, Pennsylvania and one in Triadelphia, West Virginia. We visited
the Bruceton facility during our previous study.

For this review we visited the Approval and Certification Center (A&CC) located in
Triadelphia. This center is responsible for approving and certifying mining products for
use in underground coal and gassy underground metal mines. Technical experts
evaluate and test equipment, instruments, and materials for compliance with Federal
regulations. Products evaluated and tested range from extremely small electronic
devices to very large mining systems.

The A&CC in Triadelphia consists of four divisions: Engineering and Testing,
Mechanical Safety, Electrical Safety and Quality Assurance. 40 employees of the
Center are engineers or scientist; the remainder are technicians, administrators, and
support staff.

Approval and certification of mining equipment follows a sequence. After successful
completion of evaluation and testing of a product, MSHA issues a license authorizing a
manufacturer to produce and distribute the product for use in mines. If a product is not
manufactured as it was approved, MSHA can order the manufacturer to correct the
problem or revoke the approval.


IV. METHODOLOGY

For this review we examined the authorizing legislation and underlying statutory basis

       2
           Public Law 95-164.

                                            2
of MSHA’s approval and certification mission. We conducted interviews with various
MSHA officials including national administration and A&CC staff in Triadelphia. We
also collected and examined written agency documentation, policies, and procedures.

We conducted our review according to the Quality Standards for Inspections published
by the President’s Council on Integrity and Efficiency. We did not independently verify
the validity and accuracy of the information received from MSHA officials and
employees.


V. FINDINGS AND RECOMMENDATIONS

A. Findings

1. Needs Assessment

We found that no systematic and recurrent review is conducted to evaluate the
expertise needed to fulfill MSHA’s scientific and technical mission. We discovered
through interviews with MSHA officials and employees that if a needs assessment is
conducted it is informal and does not involve a systematic approach. Although the
agency does review their need and level of expertise through the A&CC, the review is
not of a systematic and recurrent nature that would justify continued reliance on the
current procedure.

Agency staff takes advantage of a variety of resources such as the Internet and
membership in professional organizations to scan the technological and scientific
environment. However, there is no evidence that the agency’s approach is systematic.
A systematic approach would ensure MSHA has the requisite expertise to approve and
certify mining equipment.

Agency officials stated in a 1992 internal memorandum that although significant
advances have occurred in technology, MSHA “...tests and inspects products for
approval as it has done for the past forty to fifty years.” Some MSHA officials believed
that the agency would not be able to remain on the cutting edge of technology. Agency
officials today recognize that although the agency has made advances in this regard
since the 1992 memo was written, MSHA can continue improving. We believe that,
because of the rapid pace of technological innovation, the agency’s current informal
system of meeting its need for scientific and technological expertise is inadequate.



2. In-House Expertise



                                           3
No comprehensive and systematic analysis is conducted by MSHA to determine
whether the expertise it has in-house matches scientific and technological requirements
for approval and certification of mining equipment. MSHA officials acknowledge that it
is important that the agency stay abreast of the latest technological innovations in order
to match the requisite expertise needed to approve and certify mining equipment.

This process should be carried out systematically in a highly-developed manner. We
have found that this is not the case. Responses from interviews indicate the agency
depends on institutional memory residing in their staff and their Intranet site for
information on the expertise and specialty of their employees. However, institutional
memory can be unreliable, their site is not consistently updated, and some employees
are not listed.

The mission of MSHA is to be the expert certification body of mining equipment.
According to technical support officials, the lack of institutionalized systematic training
requirements-another means of enhancing in house expertise-may hinder their
certification and approval mission. Employees at the A&CC stated that their training
requests are not denied but that training is rarely mandated or tracked by the agency to
link training to achieving its mission. However, MSHA officials told us that the agency
is in the midst of a new training program that includes tracking training but that the
program has not been implemented at the A&CC yet.

3. Identifying External Scientific and Technical Resources

We have found that no systematic search is conducted for other sources of expertise to
augment the expertise MSHA has in-house for the approval and certification of mining
equipment. Realizing cooperation with other federal agencies can improve and expand
the effort to prevent mine accidents and occupationally caused diseases in the mining
industry, MSHA sought Memoranda of Understanding with other federal agencies.
MSHA has a number of federal interagency agreements that help facilitate this
objective within a limited scope. MSHA also relies on a limited number of laboratories
that they are familiar with. We are concerned with the process MSHA employs in
seeking expertise. Not enough is done to identify external scientific and technological
expertise considering the scope of MSHA’s authority.




B. Recommendations and MSHA Response



                                             4
The purpose of our recommendations is to improve scientific and technical knowledge
available to MSHA by recommending a systematic approach be established and
enacted.


      1. We recommend that MSHA conduct a systematic needs assessment on a
         recurrent basis to specify areas of scientific and technical expertise required
         to fulfill the agency’s approval and certification mission.

      2. We recommend that MSHA systematically track and monitor in-house
         expertise.

      3. We recommend that MSHA develop a systematic method for identifying
         external scientific and technical sources of expertise for certifying and
         approving mining equipment. For example: MSHA can join the Federal
         Laboratory Consortium in order to provide a network for MSHA scientific and
         technical staff to communicate with their peers and to link MSHA laboratories
         with other federal and partnership laboratories.


We suggest that MSHA implement the above recommendations by April 30, 2000.


      MSHA Response

      “...we concur with the recommendations and will take the necessary steps to
      implement them. We believe that we can implement the recommendations ... by
      October 1, 2000. In regard to Recommendation No. 3, we will explore the
      feasibility of joining the Federal Laboratory Consortium in order to network more
      effectively with scientific and technical peers. We also intend to look at other
      options for developing a systematic method for identifying external scientific and
      technical sources of expertise for certifying and approving mining equipment.
      The objective will be to determine the systematic method that best suits the
      needs of both A&CC and the mining community which it serves.”


      OIG Conclusion

      We concur with MSHA’s proposed corrective actions and consider this
      recommendation resolved. To close this recommendation, we would appreciate
      receiving a copy of the report detailing the implementation of a systematic needs
      assessment and a copy of the report implementing tracking and monitoring of in-
      house expertise. In regard to Recommendation No. 3, we would appreciate
      receiving a copy of the report that details the implementation of a systematic

                                               5
       method for identifying external scientific and technical sources of expertise. This
       includes but is not limited to providing OIG with an assessment concerning the
       feasibility of joining the Federal Laboratory Consortium.




Contributors to this report:

Daryll D. Butler, Project Manager
Lifang Chiang
George T. Fitzelle
Teserach Ketema

Amy C. Friedlander, Director, Division of Evaluations and Inspections




                                                                             Appendix A




                                            6
7
8
9
10
                                                                             Appendix B

OIG Response

In preparation of this report we solicited comments from MSHA after providing them
with a copy of the final draft. We appreciate MSHA’s cooperation during this
evaluation, and for their contributions to the final report. We respond to some of their
comments here.

MSHA Comment

“We agree that our current methodology for needs assessment is informal. We also
believe that a more formal approach can offer advantages. However, we feel that our
informal approach has not resulted in any problems or technical deficiencies relative to
the proper application of health and safety standards in the certification of mining
equipment.”

OIG Response

Our position is that the issue is not whether there have been past problems or
deficiencies but whether the agency can limit problems or deficiencies in the future.
The purpose of conducting a needs assessment is to be pro-active. The agency’s
informal approach can be improved by a more formal needs assessment in order to
keep pace with the rapid development of technology.

MSHA Comment

The draft report states that the OIG “became concerned about MSHA’s ability to
execute its scientific and technical mission with mining equipment” during this previous
study. The first sentence of the next paragraph goes on to say that “the report
identified a number of deficiencies in management and technical areas.”We believe that
this is somewhat misleading because the earlier report actually focussed [sic] primarily
on administrative and management issues such as procurement practices,
communications, quality assurance, training issues, particularly as it relates to MSHA’s
assessment of its scientific and technical expertise.

OIG Response

MSHA stated that in our review we used “...the SCSR program as a basis for drawing
conclusions about A&CC’s approval and certification activities in general.” That
contention is inaccurate. In our study the “Review of a Self-Contained Self-Rescuer
Procurement Contract and the Portal-Pack Recall for the Mine Safety and Health

                                           11
Administration” we became aware and concerned about a number of deficiencies in
management and technical areas. We drew no conclusions from the previous study,
but simply stated the impetus for our review and stated it in the background section.
We clearly stated our findings and conclusions under separate headings, none of
which included any discussion of the earlier report.

MSHA Comment

We acknowledge again that we are in agreement with the findings of the draft report.
However, we believe that the findings, while accurate, may be based more on
perceptions and inferences obtained from MSHA officials and staff rather than on
substantive evidence that MSHA’s scientific and technical expertise has been
inadequate as determined from complaints from manufactures, mine operators, users
or other third parties.

OIG Reponse

We drew our conclusions based upon the assertions of MSHA officials as well as the
lack of documentation from these officials which would support any systematic
approach to determine whether its sources of scientific and technical expertise are
adequate to fulfill its mission. An examination of complaints, or the lack thereof, from
manufactures, mine operators, users or other third parties the testimonials would not
change our conclusions or recommendations.

MSHA Comment

We believe that it is important to indicate that some formal, systematic steps have been
taken to close the gap which was perceived to exist in 1992...Today, A&CC engineers
serve on industry and labor technical advisory groups such as the diesel particulate
PEL, national and international consensus standard committees and working groups
such as UL-ANSI, ISA, IEC, SAE, SEE and others.

OIG Response

We accept the agency’s statement that it has taken steps to close the gap which was
perceived to exist by agency officials in 1992. The expertise derived from participation
in technical conferences, advisory groups, and other activities is a step in the right
direction. However, the knowledge that resides in individuals as a result of such
participation must be made available to the greater institution in a systematic way that
ensures institutional memory. Further, the continued education and participation in
these groups by agency employees should be systematically pursued after conducting
a formal needs assessment and tracked.



                                            12
